                        Office of Inspector General, USDA
                           Investigation Developments

∽ March 12, 2010 ∽

FARM SERVICE AGENCY: Missouri Grain Dealer Sentenced and Ordered to Pay $27
Million in Restitution for Fraud and Conversion of Pledged Collateral

An OIG investigation disclosed that a Missouri grain dealer falsely represented to area
farmers that she could market their grain at above-market prices. The false representations
enabled the grain dealer to become one of the largest grain dealers/shippers in Missouri. The
dealer was engaged in a Ponzi-type scheme wherein she used proceeds from subsequent
grain sales to pay the above-market prices she had promised to other farmers. Over time, the
grain dealer was unable to pay all farmers due to insufficient funds. The dealer defrauded
more than 180 farmers out of at least $27 million in proceeds from grain sales made on their
behalf. Additionally, the Commodity Credit Corporation (CCC) was not paid for $480,000 from
sales of mortgaged grain. After being charged with mail and wire fraud, interstate
transportation of stolen property, and conversion of CCC-pledged collateral, the dealer pled
guilty to one count of wire fraud. In February 2010, a Federal court in Missouri sentenced the
grain dealer to serve nine years in Federal prison, ordered her to pay restitution of $27.4
million, and to forfeit all property and assets. Additional State fraud charges are pending.

FOOD AND NUTRITION SERVICE: Joint Investigation Results in Detroit Food Store
Employees Sentenced, Ordered to Pay $3.5 Million in Restitution for Wire Fraud and Money
Laundering Involving SNAP Benefits.

An investigation by OIG and the Internal Revenue Service (IRS) disclosed substantial
Supplemental Nutrition Assistance Program (SNAP) trafficking and money laundering at two
Detroit grocery stores. During April 2004 - 2006, store owners and employees conducted over
85 SNAP benefit-for-cash transactions. In September 2009, five individuals pled guilty to
charges of conspiracy, wire fraud, and money laundering. In February 2010, a Federal court
in Michigan sentenced one employee to 33 months of imprisonment and ordered him to pay
$1.9 million in restitution. A second employee was sentenced to 27 months of imprisonment
and ordered to pay $1.6 million in restitution. Sentencing is pending for the remaining
individuals.

ANIMAL AND PLANT HEALTH INSPECTION SERVICE: Joint Investigation Results in a
Two Year Sentence and $3.9 Million in Restitution for Texas Company’s Conspiracy to
Defraud the Government

A joint investigation revealed that a Texas food company forged Department of Agriculture
(USDA) export certificates and Halal certificates to send expired and non-expired food
products to Middle Eastern countries. Companies in these countries then supplied the food to
U.S. military personnel in the Middle East. The company’s owner directed his employees to
wipe off expiration dates and re-stamp new dates prior to shipping. The company
overcharged the Government by inflating trucking charges on invoices submitted to a
Department of Defense (DOD) contractor. The owner pled guilty to conspiracy to defraud the
Government. In December 2009, he was sentenced by a Federal court in Texas to two years
of imprisonment and ordered to pay $3.9 million in restitution. Two other individuals pled
guilty to conspiracy charges and are awaiting sentencing. 1

FOOD AND NUTRITION SERVICE: Oklahoma Businesswoman Sentenced, Ordered to Pay
$1.6 Million in Restitution for False Statement and Claims Regarding the Child and Adult Care
Food Program

An OIG investigation disclosed that an Oklahoma businesswoman made false statements and
claims on monthly meal reimbursement records in order to fraudulently obtain additional meal
reimbursements from the Child and Adult Care Food Program (CACFP). In January 2010,
after pleading guilty to theft of funds from the program, a Federal court in Oklahoma
sentenced her to 41 months of imprisonment and ordered her to pay $1.6 million in restitution.
The court also issued forfeiture orders regarding a number of assets. They included a vehicle,
travel trailer, boat, real property, and retirement accounts.

RISK MANAGEMENT AGENCY: In Ongoing Investigation, Three North Carolina Men
Sentenced and Ordered to Pay $100,000 in Restitution for Fraud/Conspiracy Regarding
Tobacco Crop Insurance

An OIG investigation disclosed that three North Carolina men were involved in a fraud and
conspiracy scheme in which a large number of farmers used false names to sell tobacco,
thereby hiding their own production. Thereafter, they filed false crop insurance claims. Two of
the men were charged with conspiracy to make false statements to the Federal Crop
Insurance Corporation (FCIC). The third man was charged with conspiracy to launder money.
All three were sentenced by a Federal Court in North Carolina in January 2010 to five years of
probation. The court fined two of the men $5,000 and $10,000, respectively, and ordered
them to pay $100,000 in restitution, jointly and severally. The third individual was fined
$24,000. The OIG investigation also disclosed that numerous farmers, warehouse operators,
insurance agents, and loss adjusters assisted in filing and concealing the false claims and
cashing the checks. To date, this ongoing investigation has resulted in 13 individuals pleading
guilty to various conspiracy and false statement charges. Five individuals were sentenced
previously and four others are awaiting sentencing.

FOOD AND NUTRITION SERVICE: Joint Investigation Results in Chicago Food Store Owner
Being Sentenced, Ordered to Pay $260,000 in Restitution for Wire Fraud and Money
Laundering Involving SNAP

A joint OIG and IRS investigation disclosed that during February 1999 - March 2001, a
Chicago food store redeemed approximately $2.4 million in SNAP benefits while having
reported food sales of less than $800,000. The store owner was charged with seven counts
of wire fraud and one count of money laundering. In February 2010, an Illinois Federal court
sentenced him to four months of community confinement (work release), one year of
supervised release, and 100 hours of community service. He was also ordered to pay
$260,000 in restitution.

1
  The Defense Criminal Investigative Service (DCIS) and U.S. Army Criminal Investigation Command
(CID) assisted in the investigation.
